  Report No. D-2007-131         September 28, 2007




Followup Audit on Recommendations for Controls Over
         Exporting Sensitive Technologies to
                Countries of Concern
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DDR&E                 Director of Defense Research and Engineering
DFARS                 Defense Federal Acquisition Regulation Supplement
DTSA                  Defense Technology Security Administration
DUSD(TSP&NDP)         Deputy Under Secretary of Defense for Technology Security
                         Policy and National Disclosure Policy
EAR                   Export Administration Regulations
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
USD(P)                Under Secretary of Defense for Policy
USXPORTS              U.S. Exports System
                                      INSPECTOR GENERAL

                                     DEPARTMENT OF DEFENSE

                                      400 ARMY NAVY DRIVE

                                 ARLINGTON, VIRGINIA 22202-4704




                                                                            September 28, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE FOR POLICY
               DEPUTY UNDER SECRETARY OF DEFENSE FOR
                 TECHNOLOGY SECURITY POLICY AND NATIONAL
                  DISCLOSURE POLICY
               DIRECTOR, DEFENSE RESEARCH AND ENGINEERING
               DIRECTOR, DEFENSE TECI-INOLOGY SECURITY
                 ADMINISTRATION


SUBJECT: Report on Followup Audit on Recommendations for Controls Over Exporting Sensitive
           Technologies to Countries ofConcem (Report No. D-2007-XXX)


       We are providing this report for review and comment. We conducted the audit to comply with
Public Law 106-65, "National Defense Authorization Act of Fiscal Year 2000," Section 1402, "Annual
Report on Transfers of Militarily Sensitive Technology to Countries and Entities of Concern."

        DoD Directive 7650.3 requires that all recommendations be resolved promptly. We
considered comments from the Under Secretary of Defense for Acquisition, Technology, and
Logistics and from the Defense Technology Security Administration when preparing the final
report. Because those comments did not provide concurrence or nonconcurrence with the
recommendation, we request that those organizations send comments by October 29,2007. We
did not receive comments on a draft of this report from the Under Secretary of Defense for Policy
or the Deputy Under Secretary of Defense for Teclmology Security Policy and National Disclosure
Policy; we request that they provide comments by October 29,2007. Although not requested,
Defense Research and Engineering provided comments. We made minor changes to the report in
response to comments, the complete text of which is in the Management Comments section.

       If possible, please send management comments in electronic format (Adobe Acrobat file only) to
AudROS@dodig.mil. Copies of the management comments must contain the actual signature of the
authorizing official. We cannot accept the / Signed / symbol in place of the actual signature. If you
arrange to send classified comments electronically, they must be sent over the SECRET Internet Protocol
Router Network (SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed to
Mr. Dennis L. Conway (703) 604-9172 (DSN 664-9172) or Mr. Lamar Anderson at (703) 604-9640
(DSN 664-9640). The team members are listed inside the back cover. See Appendix E for the report
distribution.

                                              By direction of the Deputy Inspector General for Auditing:


                                                      ~=1tS>-*
                                                         Wanda A. Scott
                                                         Assistant Inspector General
                                                         Readiness and Operations Support
                     Department of Defense Office of Inspector General
Report No. D-2007-131                                                      September 28, 2007
 (Project No. D2006-D000LG-0199.000)

        Followup Audit on Recommendations for Controls Over Exporting 

                 Sensitive Technologies to Countries of Concern 


                                       Executive Summary 


Who Should Read This Report and Why? Personnel who are responsible for developing and
implementing controls over exports of sensitive technology should read this report. It discusses
audit recommendations to strengthen controls over exporting sensitive goods, services, and
technologies to foreign countries and persons.

Background. Public Law 106-65, “National Defense Authorization Act for Fiscal Year 2000,”
requires the Inspectors General of the Departments of Commerce, Defense, Energy, and State to
conduct annual reviews of the transfer of militarily sensitive technology to countries of concern. For
the annual review due to Congress by March 30, 2007, these Inspectors General were joined by
those of the Departments of Homeland Security, Treasury, the U.S. Postal Service, and the Central
Intelligence Agency. The Inspectors General decided to follow up on recommendations made from
FY 2000 through FY 2006 to improve controls over exports. Each year, the results of the individual
agencies’ reviews are combined in a report to Congress.

Results. The DoD Inspector General made 39 recommendations during FYs 2000 through 2006 to
strengthen controls and reduce risks contributing to the inappropriate export of goods, services, and
technologies such as chemicals, toxins, electronics, explosives, sensors, and lasers. As of June 28,
2006, DoD organizations had implemented 25 of the 39 recommendations. During this audit, we
found four additional recommendations were implemented for a total of 29 recommendations.
Therefore, as of December 21, 2006, DoD organizations still needed to implement 10
recommendations. The 10 remaining recommendations request DoD organizations to develop,
implement, or revise guidance to determine whether an export license is required; to prevent
unauthorized access to or disclosure of export-controlled technology; and to establish roles and
responsibilities for persons involved with export-controlled technology. Also, the recommendations
relate to analyzing and documenting analysis of export applications; updating export guidance to
reflect current organizational titles, responsibilities, and structure; giving users access to the DoD
export application system; and developing effective management controls. Until our recommended
actions are implemented, DoD continues to accept avoidable risks of inappropriately exporting
sensitive goods, services, and technology that could threaten our national security. (See the Finding
section of the report for the detailed recommendations.)

Management Comments and Audit Response. We issued a draft of this report on
March 12, 2007. The Director of Defense Procurement and Acquisition Policy responded for the
Under Secretary of Defense for Acquisition, Technology, and Logistics and neither concurred nor
nonconcurred with our finding and recommendation. We considered the Director’s response related
to explaining the process for revising the Defense Federal Acquisition Regulation Supplement;
however, we did not see that an explanation of the process was needed to explain the status of our
recommendation. We agreed with the Director’s comments and revised our report to state that the
proposed changes in the Defense Federal Acquisition Regulation Supplement did not meet the intent
of our prior recommendation. Also, we considered the Director’s comments and deleted our
references to the Defense Federal Acquisition Regulation Supplement related to issuing guidance
and training DoD personnel. We revised our finding to show that the draft policy issued by the
Deputy Under Secretary of Defense for Technology Security Policy and National Disclosure Policy
should address our recommendation for issuing guidance and training DoD personnel on procedures
for handling exports, if approved and implemented. In addition, we considered and revised our
report to reflect the Director’s comments concerning the responsibility of the Under Secretary of
Defense for Policy for revising and issuing draft DoD Instruction 2040.2. We made no change in
response to the Director’s comment that no DoD Instruction is numbered 2040.2. A draft of the new
DoD Instruction 2040.2 is being coordinated within the Department; this Instruction will replace
DoD Directive 2040.2. Finally, we considered the Director’s comments that his office’s procedures
for following up on our recommendation was timely and adequate. However, more timely action by
the Director’s office is needed to implement our recommendation. We issued our audit report on
March 25, 2004, and one recommendation remained outstanding on March 29, 2007. Until changes
are made, DoD will be at increased risk of other nations’ countering or reproducing our technology.
We request that management provide comments on this final report by October 29, 2007.

The Director (Acting) of the Defense Technology Security Administration nonconcurred with our
findings related to her office. Specifically, the Director disagreed with our use of the policies in the
Export Administration Regulations for evaluating her office’s review of applications to export dual-
use items. However, we used those export policies and procedures for evaluating the review of
license applications after reviewing and considering DoD’s directive on management controls. That
directive requires organizations to perform functions to comply with applicable laws and
management policy. The Export Administration Act is the law that establishes the requirements for
processing export license applications and the Export Administration Regulations implement the
management policies for processing those applications. DoD should consider those policies in
making recommendations to the Department of Commerce on export license applications. Also, the
Director disagreed with our finding that her office was required to document reasons for all
recommendations made on export applications. We addressed the need to document reasons for all
recommendations in our prior report, “Controls Over Exports to China,” March 30, 2006. That
report cited the Principal Statutory Authority for the Export Administration Regulations, which
stated that DoD will make and keep records of its advice, recommendations, or decisions, including
the factual and analytical basis, connected with export licenses. We agree with the Director’s
comment that her office had no statutory or regulatory authority to approve or deny export
applications, merely to recommend a course of action to the licensing department. We modified our
report to show that her office was only responsible for making recommendations to the Department
of Commerce. Further, we considered and agreed with the Director’s comment that DoD Instruction
2040.2 cannot be finalized until it has been coordinated with DoD activities and completed by the
Under Secretary of Defense for Policy. We request that management provide comments on this final
report by October 29, 2007.

We did not receive any written management comments on this report from the Under Secretary of
Defense for Policy or from the Deputy Under Secretary of Defense for Technology Security Policy
and National Disclosure Policy. Therefore, we request that both provide management comments
on this final report by October 29, 2007. Although no comments were required, we received and
agreed with comments provided by the Director of Defense Laboratory Programs, who responded
for the Director, Defense Research and Engineering. The Director commented that our
recommendation to complete DoD Instruction 2040.2 should be redirected to the Under Secretary
of Defense for Policy; we did so in the draft. Also, the Director asked us to consider revising the
report to state that DoD Instruction 2040.2 will provide export procedures, the Defense Federal
Acquisition Regulation Supplement will provide specific clauses concerning export procedures,
and training on export compliance requirements depend on the content of the yet-to-be-published
Defense Federal Acquisition Regulation Supplement and DoD Instruction 2040.2. See the
Findings section for a discussion of management comments, and see the Management Comments
section for the complete text of the comments.

                                                   ii
Table of Contents 

Executive Summary                                                              i


Background                                                                     1


Objectives                                                                     2


Finding
     Extent of Implementation of Recommendations To Improve Export Controls    4


Appendixes
     A.   Scope and Methodology                                               24 

     B.   Prior Coverage                                                      26 

     C.   Status of Prior Recommendations                                     28 

     D.   Assessment of Export Applications                                   29 

     E.   Report Distribution                                                 30 


Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics    33 

     Defense Research and Engineering                                         35 

     Defense Technology Security Administration                               37 

Background 

           Annual Review on Transfers of Technology. In FY 2000, Congress passed
           Public Law 106-65, 1 which requires an annual review of transfers of sensitive
           technology to countries of concern. The law required annual reviews to begin in
           FY 2000 and end in FY 2007. To comply with the law, Inspectors General of
           affected departments and agencies formed an interagency team to conduct the
           reviews and produce the annual reports.

           Annual Report to Congress. For the annual report due to Congress by
           March 30, 2007, the Inspectors General decided to review whether
           recommendations made in previous reports had been implemented. The
           Inspectors General participating in this year’s review include those from the
           Departments of Commerce, Defense, Energy, Homeland Security, State, and
           Treasury; the U.S. Postal Service; and the Central Intelligence Agency. This
           audit report provides the legislatively required 2007 review of DoD controls over
           exports.

           Legislative Controls Over Exports. Several laws give the U.S. Government
           authority to control the export of commodities and technologies. The primary
           legislative authority for controlling the export of goods and technologies that have
           both civilian and military use (dual use) is the Export Administration Act of
           1979, as amended (title 50, United States Code, section 2401). 2 The Arms Export
           Control Act (title 22, United States Code, section 2778) authorizes the President
           to issue regulations for export of selected:

                    •	 defense-related articles (which are models, mockups, or technical data
                       shown on the U.S. Munitions List);

                    •	 services, such as assistance provided to foreign persons in the design,
                       development, and production of defense articles; and

                    •	 technical data including either classified or unclassified information,
                       other than software, required for the design, development, or production
                       of defense articles.




1
    We performed this audit to comply with Public Law 106-65, “National Defense Authorization Act for
    Fiscal Year 2000,” section 1402, “Annual Report on Transfers of Militarily Sensitive Technology to
    Countries and Entities of Concern,” October 5, 1999.
2
    The Export Administration Act expired in August 1994. However, the President, under the authority of
    the International Emergency Economic Powers Act (50 U.S.C. 1702), continued the provision of the
    Export Administration Act through Executive Orders 12924 and 13222, “Continuation of Export Control
    Regulations,” August 19, 1994, and August 17, 2001, respectively. Each year thereafter, and most
    recently on August 3, 2006, the President issued a notice, “Continuation of Emergency Regarding Export
    Control Regulations,” extending Executive Order 13222.

                                                      1

           DoD Export Control Responsibilities. DoD designated the following offices to
           develop and implement export control policy and to control exports to foreign
           countries and persons:

               •	 Under Secretary of Defense for Acquisition, Technology, and Logistics
                  (USD[AT&L]). The USD(AT&L), in coordination with the Under
                  Secretary of Defense for Policy, is responsible for providing technology
                  assessments that help DoD determine the national security implications of
                  the transfer of technology, goods, services, and munitions. 3 Also, the
                  USD(AT&L) advises the Under Secretary of Defense for Policy on the
                  technological aspects of export control policies and procedures necessary
                  to protect the national security interests of the United States.

               •	 Under Secretary of Defense for Policy (USD[P]). The USD(P) is
                  responsible for the formulation of defense policy and for the integration
                  and oversight of DoD policies and plans to achieve national security
                  objectives. Specifically, the USD(P) oversees all aspects of DoD transfers
                  of international technology, including export controls, licensing of dual-
                  use commodities 4 and munitions, and arms cooperation programs. As part
                  of its oversight responsibilities, the USD(P) supervises the Office of the
                  Deputy Under Secretary of Defense for Technology Security Policy and
                  National Disclosure Policy.

               •	 Deputy Under Secretary of Defense for Technology Security Policy
                  and National Disclosure Policy (DUSD[TSP&NDP]). The DUSD
                  (TSP&NDP) is responsible for developing and implementing DoD
                  technology security policies to control defense-related goods, services, and
                  technology exports. The DUSD(TSP&NDP) also serves as the Director of
                  the Defense Technology Security Administration (DTSA), responsible for
                  coordinating reviews of license applications and reporting decisions made
                  on the basis of those reviews to the Department of Commerce.

Objectives
           The overall objective of this audit was to determine whether DoD effectively
           implemented recommendations made by the DoD Office of Inspector General in
           our seven previous reports (FY 2000 to FY 2006) on controls over militarily
           sensitive exports. Management had implemented recommendations from four of
           the seven reports; therefore, we reviewed the three remaining reports to determine
           management action. Specifically, we evaluated management actions taken on:

               •	 all recommendations contained in DoD IG Report No. D-2006-067,
                  “Controls Over Exports to China,” March 30, 2006;


3
    Munitions include arms and ammunition as well as any material, equipment, or goods used to make
    military items.
4
    Dual-use commodities can be used for commercial or military purposes.


                                                     2

   •	 Recommendations 1. and 2. in DoD IG Report No. D-2004-061, “Export-
      Controlled Technology at Contractor, University, and Federally Funded
      Research and Development Center Facilities,” March 25, 2004; and

   •	 Recommendations A.1. and A.2. in DoD IG Report No. D-2000-110,
      “Export Licensing at DoD Research Facilities,” March 24, 2000, which
      related to controls over exporting sensitive technologies to countries of
      concern.

See Appendix A for a discussion of the scope and methodology, and Appendix B
for prior coverage related to the audit objective.




                                    3

                    Extent of Implementation of
                    Recommendations To Improve Export
                    Controls
                    DoD organizations implemented 29 of 39 (74 percent) of the
                    recommendations made in the 7 reports that we issued from FY 2000
                    through FY 2006. We made the 39 recommendations to strengthen
                    controls and reduce risks of inappropriate exports of goods, services, and
                    technologies such as chemicals, toxins, electronics, explosives, sensors,
                    and lasers. However, DoD organizations need to take further actions to
                    fully implement the 10 remaining recommendations in 3 of the 7 reports.

                    DoD organizations did not establish a fully effective process for following
                    up and aggressively implementing the 10 outstanding recommendations as
                    demonstrated by one recommendation that was not implemented for
                    almost 7 years. Until recommended controls are implemented, DoD
                    continues to accept avoidable risks of inappropriately exporting sensitive
                    goods, services, and technology that could threaten our national security.

DoD Guidance on Implementing Audit Recommendations
          Guidance on Implementing Recommendations. DoD Directive 7650.3,
          “Follow-up on General Accounting Office (GAO), 5 DoD Inspector General (DoD
          IG), and Internal Audit Reports,” provides guidance to DoD managers on
          implementing audit recommendations. The Directive states:

               •	 “The DoD Component managers recognize, support, and use auditors as
                  important elements of DoD management systems.

               •	 Timely decisions and responsive actions shall be taken and documented on
                  audit findings and recommendations to reduce costs, manage risks, and
                  improve management processes.

               •	 Follow-up is an integral part of good management and is a responsibility
                  shared by DoD managers and auditors.

               •	 An effective, credible decision process shall be maintained to resolve
                  disputes on audit findings and recommendations; prevent preemptive
                  actions, such as proceeding with activities questioned in undecided audit
                  reports; and provide prompt and well-documented decisions consistent
                  with statutes and regulations.

               •	   Follow-up systems shall provide for a complete record of action taken on
                    findings and recommendations.”

5
    The General Accounting Office was renamed the Government Accountability Office.


                                                   4

Status of Recommendations. We announced the audit on June 28, 2006, to
determine whether DoD officials had implemented the recommendations we
made from FY 2000 through FY 2006. The results of this audit will be combined
with the results of reviews by seven other Inspectors General in a report to
Congress. The report will provide an assessment of the extent to which export
controls were implemented within the Federal Government from FYs 2000
through 2006.

As of June 28, 2006, DoD organizations had implemented 25 of 39 (64 percent)
of the recommendations made in our reports from FYs 2000 through 2006. Those
DoD organizations had agreed to implement all 39 recommendations.

During this audit, we found that DoD organizations had implemented four
additional recommendations. Therefore, as of December 21, 2006, 29 of 39
(74 percent) of the recommendations were implemented. The table shows the
number of recommendations we made and those implemented by DoD
organizations.

                    Status of Recommendations
                                                 Implemented
                                           As of             As of
                                          June 28,          Dec. 12,
                      Number of             2006             2006
Report Number      Recommendations        Yes    No         Yes    No
 D-2006-067              7                 0      7           1     6
 D-2005-042              1                 1      0           1     0
 D-2004-061              4                 1      3           1     3
 D-2003-070              3                 3      0           3     0
 D-2002-039              4                 4      0           4     0
 D-2001-088              8                 8      0           8     0
 D-2000-110              12                8      4          11     1
    Total                39               25     14          29    10

(See Appendix C for a complete list of the recommendations we reviewed.)




                                   5

Work Needed To Implement Recommendations
           As of June 28, 2006, DoD organizations still needed to implement 14 of the
           recommendations made during FYs 2000 to 2006. 6 One outstanding
           recommendation was almost 7 years old. Also, as of December 12, 2006, we
           found that 4 additional recommendations were implemented, which resulted in
           10 remaining outstanding.

           Five DoD organizations were responsible for implementing the
           14 recommendations. We indicate responsibility for and discuss the status
           (outstanding or closed) of recommendations below, by organization:

                •	 Under Secretary of Defense for Acquisition, Technology, and Logistics
                   (USD[AT&L]) was responsible for implementing 1 of the
                   14 recommendations, this recommendation remains outstanding;

                •	 Under Secretary of Defense for Policy (USD[P]) was responsible for
                   implementing 2 of the 14 recommendations, 1 of the
                   2 recommendations remains outstanding;

                •	 Deputy Under Secretary of Defense for Technology Security Policy
                   and National Disclosure Policy (DUSD[TSP&NDP]) was responsible
                   for implementing 4 of the 14 recommendations, each of the
                   4 recommendations remain outstanding;

                •	 Director, Defense Research and Engineering (DDR&E) was both
                   responsible for implementing 2 of the 14 recommendations,
                   recommendations were closed and a new recommendation was made
                   in this report to USD(P); and

                •	 Director, Defense Technology Security Administration (DTSA) was
                   responsible for implementing 5 of the 14 recommendations, 4 of the
                   5 recommendations remain outstanding.
           Under Secretary of Defense for Acquisition, Technology, and
           Logistics (USD[AT&L]). The USD(AT&L) did not implement one of the
           recommendations in Report No. D-2004-061, “Export Controlled Technology at
           Contractor, University, and Federally Funded Research and Development Center
           Facilities.” We issued the report on March 25, 2004, and recommended that the
           USD(AT&L) develop and insert a clause in the Defense Federal Acquisition
           Regulation Supplement (DFARS) requiring contractors to:
                    Comply with Federal export regulations and DoD guidance for export-
                    controlled technology and technical data by obtaining an export license,
                    other authorized approval or exemption, and preventing unauthorized
                    disclosure to foreign nationals.

6
    As previously noted, we determined during this audit that 4 of the 14 recommendations were implemented,
    as of December 12, 2006.


                                                       6

                   Incorporate the terms of the clause in all subcontracts that involve
                   export-controlled technology.

                   Conduct initial and periodic training on export compliance controls for
                   those employees who have access to export-controlled technology.

                   Perform periodic self-assessments to ensure compliance with Federal
                   export laws and regulations.

           Although the USD(AT&L) concurred with our recommendation in July 2004, the
           office had not implemented it as of December 21, 2006. However, USD(AT&L)
           did publish a draft of the proposed clause in the Federal Register dated
           August 14, 2006. USD(AT&L) officials stated that they received comments from
           the public in November 2006. However, as of February 5, 2007, USD(AT&L)
           had not completed the clause in the DFARS because those officials had not
           obtained the agreement from the Defense Acquisition Regulatory Council on the
           wording of the clause or the approval of the Office of Management and Budget’s
           Office of Information and Regulatory Affairs.

           We examined the proposed clause; it did not require contractors to conduct initial
           and periodic training or to perform periodic self-assessments on compliance with
           the Federal export laws and regulations. Therefore, we concluded that the clause
           did not meet the intent of the recommendation, which will remain outstanding
           (open) until the clause is revised to address the requirements of the
           recommendation and is published in the DFARS.
           Under Secretary of Defense for Policy (USD[P]).               The Office of
           the USD(P) implemented one of the two recommendations we made in Report
           No. D-2000-110, “Export Licensing at DoD Research Facilities,” on March 24,
           2000.

           Specifically, we recommended that the USD(P):
                   Coordinate with Commerce and State to develop guidance regarding
                   when a visit or assignment of a foreign national to a Defense facility
                   requires a deemed export license. 7

                   Revise DoD Directive 2040.2, “International Transfers of Technology,
                   Goods, Services, and Munitions,” to clearly state policies, procedures,
                   and responsibilities of DoD and Military Department hosts for
                   determining whether a deemed export license is required when a
                   foreign national visits a Defense facility.

                  Guidance on When To Obtain a Deemed Export License. On March
           24, 2000, the USD(P) agreed with the first recommendation to coordinate with the
           Departments of Commerce and State to develop guidance for when a visit or
           assignment of a foreign national to a DoD facility requires a deemed export
7
    A deemed export is defined by Export Administration Regulations (EAR) as a release of technology to a
    foreign national in the United States through such means as visual inspection, oral exchanges, or
    application of personal knowledge or technical experience acquired in the United States.

                                                      7

           license. Also, on March 24, 2000, the USD(P) stated that DoD Directive 5230.20,
           “Visits, Assignments, and Exchanges of Foreign Nationals,” would be revised to
           include DoD policies for licenses of deemed exports. During this audit, we
           examined the revised directive and determined that it includes guidance that
           satisfies our recommendation; therefore, we consider the recommendation closed.

                   Revision of DoD Directive. For the second recommendation—to revise
           guidance by clearly stating how Departmental hosts 8 should determine whether a
           deemed export license is required when a foreign national visits a Defense
           facility—DoD took several actions. Specifically, DTSA, an office under the
           USD(P):

                     •	 issued guidance in November 2002 and June 2003 that restricted the
                        access of foreign nationals to export-controlled technologies at DoD
                        facilities, and

                     •	 continued to review DoD Directive 2040.2, “International Transfers of
                        Technology, Goods, Services, and Munitions,” 9 as of February 2005.
           During this audit, a DUSD(TSP&NDP) official assigned to the USD(P) provided
           a draft memorandum, “Interim Guidance on Export Controls for Biological
           Agents,” dated August 14, 2004. We determined that the proposed memorandum
           would fulfill our recommendation and clearly defines the policies, procedures,
           and responsibilities of DoD and Military Department hosts for determining
           whether a deemed export license is required when a foreign national visits a DoD
           facility. A USD(P) official stated that the guidance will be included in the revised
           DoD Instruction 2040.2; however, the Instruction remains in draft, and the
           USD(P) official could not provide an estimated completion date. Therefore, this
           recommendation remains open until the guidance is published in DoD Instruction
           2040.2.

           Deputy Under Secretary of Defense for Technology Security
           Policy and National
                         10
                               Disclosure Policy (DUSD[TSP&NDP]).
           DUSD(TSP&NDP) did not implement two recommendations from FY 2004 and
           the two from FY 2006. In FY 2004, we issued Report No. D-2004-061, “Export
           Controlled Technology at Contractor, University, and Federally Funded Research
           and Development Center Facilities.” We issued the report on March 25, 2004,
           and recommended that the DUSD(TSP&NDP):
                     Expand “Interim Guidance on Export Controls for Biological Agents,”
                     November 7, 2002 to:

                              Encompass all export-controlled technology.

8
    A host is a designated individual or organization that is responsible for coordinating foreign national visits
    to sensitive and nonsensitive U.S. Government facilities.
9
  DoD Directive 2040.2, “International Transfers of Technology, Goods, Services, and Munitions,” is now
in draft as DoD Instruction 2040.2, “International Transfers of Technology, Goods, and Services.”
10
    DUSD(TSP&NDP) was formerly titled the Deputy Under Secretary of Defense for Technology Security
    Policy and Counter Proliferation.


                                                         8

       Require program managers, in coordination with counterintelligence,
       security, and foreign disclosure personnel to:

               •	   identify export-controlled technology, foreign national
                    restrictions, and licensing requirements.

               •	   identify threats by foreign countries that are targeting the
                    specific technologies.

               •	   identify vulnerabilities and countermeasures to protect the
                    export-controlled technology.

       Require program managers and contracting officers to ensure that
       contracts identify the export-controlled technology and contain
       requirements to maintain an access control plan, including unique
       badging technology; perform export compliance training; conduct
       annual self-assessments; and comply with Federal export laws by
       obtaining an export license, other authorized approval or exemption, or
       by safeguarding the technology when contracts involve export-
       controlled technology or information.

Expanding Interim Guidance. The DUSD(TSP&NDP) generally concurred
with this recommendation on February 17, 2004, and later stated that follow-on
draft guidance was issued in August 2004. We examined the draft interim
guidance and found the guidance did address a portion of the recommendation;
however, the guidance did not include procedures that require program managers,
in coordination with counterintelligence, security, and foreign disclosure
personnel, to identify:

       •	 export-controlled technology, foreign national restrictions, and licensing
          requirements;

       •	 threats by foreign countries that are targeting the specific technologies;
          and

       •	 vulnerabilities and countermeasures to protect the export-controlled
          technology.

In addition, the interim guidance was not expanded to require program managers
and contracting officers to conduct annual self-assessments.

On January 17, 2007, a DUSD(TSP&NDP) official stated that his office was
working to include these procedures in the draft interim guidance. On February 2,
2007, a DUSD(TSP&NDP) official told us that the draft interim guidance will not
be issued as a separate memorandum because the guidance will be published in
DoD Instruction 2040.2. However, our recommendation was not incorporated in
either the interim guidance or the Instruction; therefore, we consider this
recommendation open. Further, in this report, we issued a new recommendation
that requests the USD(P) to complete and publish DoD Instruction 2040.2,
because the USD(P) has the responsibility for updating and publishing this
Instruction.
                                          9

      Incorporating Interim Guidance in a DoD Directive. For the second
recommendation, we requested the DUSD(TSP&NDP):

       Incorporate the interim guidance into the revision of DoD Directive
       2040.2, “International Transfers of Technology, Goods, Services, and
       Munitions,” January 1984, to include the roles and responsibilities of
       the program managers, counterintelligence, security, and foreign
       disclosure personnel.

The DUSD(TSP&NDP) generally concurred with this recommendation on
March 25, 2004, and planned to include the interim guidance in DoD
Instruction 2040.2. In August 2004, the DUSD(TSP&NDP) issued interim
guidance.

During this audit, we reviewed the interim guidance and the DoD Instruction;
neither addressed the roles and responsibilities of counterintelligence and foreign
disclosure personnel for controlling the release of technology and technical data.
Also during the audit, a DUSD(TSP&NDP) official reiterated to us on February 2,
2007, that the interim guidance will not be re-issued as a separate memorandum
because the guidance will be published in the revised DoD Instruction.
Regardless, the DoD Instruction did not fully address our recommendation and
remains in draft without a planned completion date. Therefore, this
recommendation remains open.

       Gaining Access to USXPORTS. In addition to the recommendations we
made in FY 2004 to the USD(TSP&NDP), we examined the following two
recommendations addressed to the USD(TSP&NDP) in Report No. D-2006-067,
“Controls Over Exports to China.” Specifically, we recommended on March 30,
2006, that the DUSD(TSP&NDP):
       Grant access privileges to the four DoD organizations currently without
       access to USXPORTS to facilitate reviews of export applications.

       Update the guidance for the export review process to reflect current
       organizations and responsibilities.

Audit Report No. D-2006-067 identified that 4 of the 18 DoD organizations
responsible for reviewing export applications were disconnected from
USXPORTS (USXPORTS is an automated system used by DoD to process
electronic export license data). The audit report recommended that the four
organizations’ access to this system be restored. The DUSD(TSP&NDP) agreed
with our recommendation on March 29, 2006, and stated she would inform users
of USXPORTS, within 60 days of becoming disconnected from the system, of the
need to maintain access.

As of December 21, 2006, we found that DUSD(TSP&NDP) did not inform the
four organizations’ users of the need to maintain access to USXPORTS. A DTSA
official, who reports to the Office of the DUSD(TSP&NDP), suggested we
coordinate with the USD(P) regarding users’ access to USXPORTS. (The
USD[P] is responsible for developing, maintaining, and operating USXPORTS.)

                                         10 

We asked a USD(P) official why users at the four organizations were not
informed of the need to maintain access to USXPORTS. The USD(P) official
was unable to provide a reason. He told us that his office did not coordinate with
DTSA when users were dropped from USXPORTS. Therefore, DTSA would not
have known when users of USXPORTS were dropped from the system.

As a result of our discussions with the USD(P) official, we again asked the DTSA
official why users of USXPORTS were not notified of the need to maintain access
to USXPORTS. The DTSA official told us that the organizations were notified,
but he could not provide documentation to show that they were notified. Also, the
DTSA official told us that DTSA could not require organizations to use
USXPORTS. In addition, the DTSA official stated that there were plans to
transfer responsibility for USXPORTS from USD(P) to DTSA; however, he could
not provide the date of transfer. Although the DTSA official could not provide a
date when DTSA would assume the responsibilities for USXPORTS, he told us
that when the transfer occurs his office will modify DoD Instruction 2040.2 to
require users of USXPORTS to maintain access to USXPORTS. As a result, the
recommendation remains open.

        Updating Guidance on the Export Review Process. Our second
recommendation asked DUSD(TSP&NDP) to update guidance on the export
review process to reflect current organizations and responsibilities.
DUSD(TSP&NDP) agreed with this recommendation on March 29, 2006, and
stated that organizational changes would be accurately reflected in the guidance
on the export review process.

We determined that DUSD(TSP&NDP) established draft guidance, but the
guidance was not updated to reflect current DoD organizations and
responsibilities. On November 14, 2006, a DUSD(TSP&NDP) official stated that
the guidance is a draft and the current organizations and responsibilities cannot be
completely determined until the Office of the Secretary of Defense completes its
reorganization. As a result, the recommendation remains open.

Director, Defense Research and Engineering (DDR&E).                The
following two recommendations to DDR&E are in Report No. D-2000-110,
“Export Licensing at DoD Research Facilities,” March 24, 2000.
       Develop an export control program document containing procedures
       for determining if technology or commodities at Defense research
       facilities can be exported, with or without a license, including
       circumstances that may constitute exemptions from requirements of the
       Export Administration Regulations or International Traffic in Arms
       Regulations.

       Mandate training requirements for personnel at Defense research
       facilities on the deemed export licensing requirements of the Export
       Administration Regulations and International Traffic in Arms
       Regulations.




                                        11

        Guidance on Restricted Technology. DDR&E officials stated that the
DUSD(TSP&NDP) issued a memorandum on August 14, 2004, that included a
revised draft policy memorandum and a guide, “Managing Foreign Access:
Implementing DoD Guidance on Restricted Technology.” During this audit, we
found the guide contained procedures for determining whether goods, services,
and technology at DoD research facilities were exportable with or without a
license. In addition, we determined that this guidance is in draft and will be
included in DoD Instruction 2040.2, which will be completed by USD(P) because
the USD(P) has the responsibility for updating and publishing this Instruction.
Therefore, we decided to close our recommendation to the DDR&E and issue a
new recommendation requesting that USD(P) complete and publish DoD
Instruction 2040.2. The new recommendation requests that USD(P) merge
procedures for determining whether goods, services, and technology at DoD
research facilities were exportable with or without a license—procedures already
contained in the draft policy guide, “Managing Foreign Access: Implementing
DoD Guidance on Restricted Technology”—into the DoD Instruction.

        Training Requirements for Defense Research Personnel. For the
second recommendation, a DDR&E official informed us that the training
requirements for personnel at DoD research facilities depend on the content of
yet-to-be-published revisions of the DFARS and DoD Instruction 2040.2. In
addition, DDR&E officials told us that they trained program managers, laboratory
personnel, and security managers on deemed export licensing requirements of the
Export Administration Regulations and the International Traffic in Arms
Regulations.

Our review of the proposed revisions to DFARS and DoD Instruction 2040.2
determined that neither document included a mandate for training personnel at
DoD research facilities on deemed export licensing requirements. As previously
stated, DDR&E officials stated that the DUSD(TSP&NDP) issued a
memorandum on August 14, 2004, that included a revised draft policy
memorandum and a guide, “Managing Foreign Access: Implementing DoD
Guidance on Restricted Technology.”

We found the guide prescribed training for personnel at DoD research facilities on
export licensing requirements. However, on February 2, 2007, a
DUSD(TSP&NDP) official reiterated to us that the interim guidance will not be
issued as a separate memorandum because the guidance will be published in DoD
Instruction 2040.2. As such, our recommendation was not included in the
pending revisions to the DFARS and the Instruction.

Further, we issued a new recommendation that requests the USD(P) to complete
and publish DoD Instruction 2040.2 because, as previously stated, the USD(P) has
the responsibility for updating and publishing this Instruction. Therefore, we
decided to close our recommendation to DDR&E and issue a new
recommendation that requests USD(P) to complete and publish the DoD
Instruction. Completing the Instruction will involve the insertion of a mandate
contained in the draft policy guide, “Managing Foreign Access: Implementing
DoD Guidance on Restricted Technology” for training personnel at DoD research
facilities on deemed export licensing requirements.


                                    12 

Director, Defense Technology Security Administration
(DTSA). The DTSA implemented one recommendation but not four others
made in Report No. D-2006-067, “Controls Over Exports to China,”
March 30, 2006. During this audit, we examined DTSA actions to implement the
following five recommendations:
       Prepare written analyses to support decisions on export applications
       and maintain documents in USXPORTS to support those decisions.

       Elevate decisions to the extent possible when the appeal process does
       not produce a decision that supports the national security posture.

       Provide written responsibilities to the senior management control
       official for administering the management control program.

       Maintain documentation of training that managers of operating and
       assessable units receive.

       Adjust the internal management control program to more effectively
       assess internal controls for recording analyses and documentation in
       USXPORTS.

         Documentation for Decisions on Export Applications. In response to
the first recommendation, on May 19, 2006, the Acting DUSD(TSP&NDP)
replied for DTSA:
       We are in general agreement with the proposition that complete
       analysis is a necessary and vital part of the licensing process.
       However, we disagree that inclusion of every facet of analysis
       considered in making a licensing determination is required-or even
       necessary-in every individual case. This is particularly true since
       implementation of a newer, automated license system, USXPORTS.

       All cases that were reviewed for this Report occurred prior to
       USXPORTS deployment. Significant changes have been made to the
       automated license database including:

               •	 USXPORTS maintains thorough data for each case, e.g.,
                  support documents, technical specification, end-user
                  information, etc;

               •	 USXPORTS provides an easy way for licensing experts to
                  search for precedent decisions, e.g., cases that involve the
                  same item to the same destination, or the same end user or
                  an item of similar capability to the same country; and

               •	 USXPORTS now contains complete analytic information
                  for all cases escalated to the Operating Committee, the
                  interagency committee that is the first line of escalation for
                  disputed cases and where most are resolved.


                                         13

            To determine whether the recommendation was implemented, we requested and
            received the files supporting 1,609 and 1,880 applications to export to China for
            calendar years 2005 and 2006, respectively. We found that DTSA made
            recommendations (with conditions) to approve 2,953 export applications and to
            disapprove 385 applications. Those 3,338 applications represented 96 percent of
            the 3,489 applications processed for exports to China in calendar years 2005 and
            2006. 11 According to DTSA officials, the 3,489 applications contained complete
            and timely data.

                            Selection Process for Application Review. We judgmentally
            selected and reviewed 40 of the 3,489 applications that contained requests to
            export sensitive goods, services, and technology such as chemicals and toxins,
            electronics, explosives, sensors, and lasers. The sample of 40 applications had
            closing dates 12 from January 7, 2005, to December 29, 2006. We selected these
            applications because of the potential adverse impact the prospective exports
            would have on regional stability, proliferation of nuclear weapons, use of
            chemical and biological weapons, and national security, if sent to China.

                           Results of Application Review. The review of the application
            files showed that 29 of the 40 files did not contain adequate analysis. In addition,
            39 of the 40 did not have adequate supporting documentation.

                    For example, one file contained an application that recommended approval
            with conditions to export a pulse neutron generator to China. For this item, the
            Export Administration Regulations state that eight factors should be considered
            when determining whether to recommend approval of an application. Those
            factors were:

                     •	 whether the items to be transferred are appropriate for the stated end use
                        and whether that stated end use is appropriate for the end user,

                     •	 the significance for nuclear purposes of the particular item,

                     •	 whether the item can be used in a nuclear reprocessing or enrichment
                        facility,

                     •	 the types of assurances given that the item will not be used for nuclear
                        explosive purposes or proliferation,

                     •	 whether any party to the transaction has been engaged in clandestine or
                        illegal procurement activities,

                     •	 whether an application has previously been denied, or whether the end
                        user has previously diverted items,

11
      The remaining applications were either approved, returned to the applicant without action, or partially
     approved.
12
      DTSA defined “closing date” as the date when it completed work on an application, developed its final
     recommendation for the application, and returned the application to the Department of Commerce.


                                                        14 

       •	 whether the export or re-export would present an unacceptable risk of
          diversion to a nuclear explosive activity or a nuclear fuel-cycle activity,
          and

       •	 the nonproliferation credential of the importing country.

A review of this application file determined that the analysis and documentation
were inadequate to justify the decision made by DTSA to recommend approval of
this application. Specifically, the file did not include adequate analysis or
documentation for any of the eight factors. Therefore, the file did not support the
recommendation to approve the application. Because 29 of 40 files did not
contain adequate analysis and 39 of 40 lacked documentation, our
recommendation remains open. See Appendix D for the results of our analysis of
the 40 application files we selected for review.

        Decisions To Elevate Recommendations. For our second
recommendation, we suggested that DTSA elevate its recommendations to the
extent possible in the export application appeal process, if the majority of the
representatives from the Departments of Commerce, Energy, and State did not
agree with a DTSA recommendation (DTSA is responsible for recommending
whether to approve export applications for DoD). We selected 11 applications
that DTSA disapproved. One of the 11 was approved (with conditions) by all the
other Departmental representatives. Thus, the majority of the Departments
opposed the DTSA recommendation. Therefore, DTSA had the opportunity to
appeal, but instead changed its recommendation and decided to approve the
application with conditions.

Export Administration Regulations do not require a Department to appeal if the
majority of the other Departments disagree with its recommendation. Also,
Export Administration Regulations allow a Department to add conditions that it
considers appropriate to offset the risk associated with approval of an application.
As a result, our sample did not detect any instances in which DTSA did not use
the appeal process to the extent it considered possible. Therefore, we consider
this recommendation closed.

       Management Control Plan. For the remaining three recommendations,
which pertain to management controls, DTSA agreed with the recommendations
on March 29, 2006, and stated it had adjusted its management control plan to:

        •	 provide written responsibilities to the senior management control
           official,

        •	 maintain training documentation for managers of operating and
           assessable units, and

        •	 more effectively assess internal controls for recording analyses and
           maintaining documentation in USXPORTS.

DTSA provided a draft management control plan that did not meet the intent of
the recommendations. On November 16, 2006, a DTSA official stated that

                                     15

    controls were in place but not written into the draft management control plan
    because of significant personnel turnover. Although he stated that the plan would
    be updated by December 31, 2006, we were unable to obtain this plan before we
    completed the audit. The three recommendations cited above will remain open
    until DTSA updates and approves the management control plan, including the
    requirements of our recommendations.

Effective Process for Following Up on Prior Recommendations
    While the five DoD organizations responsible for managing export activities
    implemented most of the recommendations, they did not establish a fully effective
    process for following up on and implementing all of our recommendations.
    Those organizations had agreed to implement each of our 39 recommendations;
    however, 1 recommendation remained open for almost 7 years.

    DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
    Procedures,” January 4, 2006, states that the Managers’ Internal Control Program
    should identify and promptly correct ineffective internal controls. Also, the
    Instruction requires DoD managers to track corrective actions taken to expedite
    prompt resolution of control deficiencies. In addition, the Instruction states that
    the deficiencies identified, whether through internal review or by an external
    audit, should be evaluated and corrected.

    Office of Management and Budget Circular No. A-123, “Management’s
    Responsibility for Internal Control,” December 21, 2004, requires DoD
    Component managers to take prompt and effective actions to correct weaknesses
    in their internal control processes. The Circular states that management must
    make a decision regarding Inspector General audit recommendations within a
    6-month period and complete implementation of management’s decision within
    1 year, to the extent practicable.

    The audit showed that four DoD organizations were not prompt in implementing
    10 of the recommendations. While DoD organizations made improvements in
    export controls and implemented 74 percent of the recommendations, they told us
    that implementation of the remaining recommendations was restricted, in part, by
    the ongoing DoD reorganization, personnel turnover, insufficient numbers of
    personnel, and the formal process for updating the DFARS. However, we
    contend that DoD managers are constantly confronted with constraints on
    resources and with organizational changes and must take action to implement
    audit recommendations to manage risks and improve management processes.

Risks of Not Implementing Export Controls
    Until the recommended controls are implemented, DoD continues to accept
    avoidable risks of exporting sensitive goods, services, and technology that could
    threaten our national security. During this audit, we found that
    10 recommendations remain open. We made 1 of the 10 recommendations in
    FY 2000, 3 in FY 2004, and 6 in FY 2006.

                                        16 

Controls Recommended in FY 2000. Our review in FY 2000 recommended that
the USD(P) revise DoD Directive 2040.2 to clearly state policies, procedures, and
responsibilities of DoD and Military Department hosts for determining whether a
deemed export license was required when a foreign national visits a Defense
facility. Such a revision is important because, during the review in FY 2000, we
found that more than 11,000 foreign nationals visited 6 research facilities within
only 2 fiscal years.

Controls Recommended in FY 2004. Our review in FY 2004 recommended that
DUSD(TSP&NDP) expand interim guidance on export controls for biological
agents and include the interim guidance in the DoD Directive. The guidance
should include the roles and responsibilities of program managers and of
counterintelligence, security, and foreign disclosure personnel.

Also, we recommended the USD(AT&L):

     •	 develop and include in the DFARS an export clause that requires a
        contractor to comply with Federal export regulations and DoD guidance,

     •	 include an export-controlled technology clause in all subcontracts, and

     •	 conduct training and self-assessments.

However, until DoD program managers are held accountable for identifying
export-controlled technology and have controls in place to protect the export-
controlled technology, DoD will be at increased risk of other nations’ countering
or reproducing our technology.

Controls Recommended in FY 2006. Most recently, in FY 2006, we
recommended that DTSA:

    •	 record its analyses and insert documentation in the USXPORTS database
       to support recommendations made on export applications;

    •	 update export guidance to reflect current organizational titles, 

       responsibilities, and structure; 


    •	 grant DoD organizations without access to USXPORTS the access
       needed to facilitate reviews of export applications; and

    •	 develop effective management controls.

Our recommendations were intended to help reduce the risk of allowing
unjustified exports to China and to strengthen U.S. actions to maintain regional
stability; hinder proliferation of nuclear, chemical, and biological weapons; and
offset adverse effects on our national security. Until management fully
implements the 10 recommendations, DoD will continue to accept avoidable risks
in exporting sensitive goods, services, and technology that could threaten our
national security.


                                    17

Conclusion
    DoD organizations did implement 74 percent of the recommendations in seven
    reports issued from FY 2000 through FY 2006. However, these organizations
    need to continue taking actions to fully implement the 10 remaining
    recommendations.

    Normally, we request DoD organizations to comment on each recommendation,
    but we received those comments during the audit. Therefore, additional
    comments are not necessary on the prior recommendations. As a result of this
    audit, we are making new recommendations and asking management to comment
    on them.

    We will ask our Report Followup Division to continue to track the status of
    actions taken on the unimplemented recommendations during its periodic reviews.
    The division will monitor the status of the 10 unimplemented recommendations
    shown in Appendix C of this report.




                                      18 

Management Comments on the Finding and Audit Response
    USD(AT&L) Comments on the Finding. We issued a draft of this report on
    March 12, 2007. The Director of Defense Procurement and Acquisition Policy
    responded for the Under Secretary of Defense for Acquisition, Technology, and
    Logistics and neither concurred nor nonconcurred with our finding and
    recommendations, but provided comments. For the full text of the comments, see
    the Management Comments section of the report.

    The Director suggested that we edit and augment the finding to reflect the
    procedures involved with updating the Defense Federal Acquisition Regulation
    Supplement (DFARS). In addition, the Director requested clarification on the
    issuance of export guidance, training requirements for DoD research personnel,
    and responsibility for DoD Instruction 2040.2. For full text of the comments, see
    the Management Comments section of the report.

    Audit Response. We considered the Director’s comments related to the process
    for updating the DFARS. In consideration of the Director’s comments, we did
    not see that the addition of an explanation of the process for coordinating changes
    to the Supplement was needed to explain the current status of our
    recommendations. However, we revised the report to clarify our position that the
    proposed clause in the DFARS did not meet the intent of our prior
    recommendation, which requires contractors to conduct initial and periodic
    training and to perform periodic self-assessments on their compliance with
    Federal export laws and regulations. Therefore, the recommendation remains
    open until the clause is revised and published in the DFARS to address our
    recommendation.

    Also, we considered the Director’s comments on the proposed revision to the
    DFARS, related to issuing export guidance to and training of DoD personnel. As
    a result of reviewing those comments, we revised our finding to show that the
    draft policy guide issued by the Deputy Under Secretary of Defense for
    Technology Security Policy and National Disclosure Policy, “Managing Foreign
    Access: Implementing DoD Guidance on Restricted Technology,” should address
    our recommendations on issuing export guidance and training DoD personnel.
    However, the guide is a draft and the policies listed in the guide must be included
    in the revised DoD Instruction 2040.2 and published by USD(P). The
    recommendation remains open until the requirements are addressed in formal
    policy documents.

    In addition, we considered the Director’s comments concerning the responsibility
    for revising DoD Instruction 2040.2. We revised our report and requested that the
    Under Secretary of Defense for Policy complete the revisions and issue the
    Instruction (the Under Secretary of Defense for Policy is responsible for issuing
    DoD Instructions related to international transfers of technology, goods, services,
    and munitions). We acknowledge, but made no change in response to, the
    Director’s comments that no DoD Instruction is numbered 2040.2. The draft DoD
    Instruction 2040.2, “International Transfers of Technology, Goods, and Services,”


                                        19

is replacing DoD Directive 2040.2, “International Transfers of Technology,
Goods, Services, and Munitions.”

Finally, we considered the Director’s comments related to responsiveness in
implementing recommendations. The Director stated that he believed his office’s
procedures for following up on our recommendations were adequate to ensure
timely and responsive actions. However, management actions are still needed to
implement our recommendations in a timely manner since we issued our audit
report on March 25, 2004, and the recommendations remained outstanding as of
March 29, 2007. Until the recommendations are implemented, some DoD
program managers will not be held accountable for identifying and protecting
export-controlled technology, and we will be at increased risk of other nations’
countering or reproducing our technology.

DTSA Comments on the Finding. The Director (Acting) of the Defense
Technology Security Administration nonconcurred with our findings related to
her office. Specifically, the Director disagreed with our use of the policies in the
Export Administration Regulations (EAR) for evaluating her office’s review of
applications to export dual-use (military or civilian use) goods, services, and
technologies. The Director stated that it is the responsibility of the Department of
Commerce, not DoD, to use the EAR as a basis for evaluating export license
applications. Also, the Director disagreed with our finding that her office was
required to document reasons for all recommendations made on export
applications. She commented that a statement of reasons was required only for
recommendations to deny export licenses. In addition, the Director commented
that her office had no statutory or regulatory authority to approve or deny export
applications, merely to recommend a course of action to the licensing department.

Further, she commented that DoD Instruction 2040.2 could not be finalized until
the process for coordinating it within the Department was complete. Also, she
stated that our audit did not consider the steps taken by her office to incorporate
prior audit recommendations, many of which are included in the upcoming
revision of DoD Instruction 2040.2, which has been in process for many months.
For the full text, see DTSA Management Comments on page 37 of this report.

Audit Response. The Director disagreed with our use of the policies identified in
the EAR. However, DoD Directive 5010.38, “Management Control (MC)
Program,” August 26, 1996, states that each DoD field activity (the Defense
Technology Security Administration is a field activity) must implement
management controls that provide reasonable assurance that programs, as well as
administrative and operating functions, are efficiently and effectively carried out
in accordance with applicable laws and management policy, such as the Export
Administration Act (EAA) and the EAR.

The EAA authorizes the Secretary of Commerce to issue policies and procedures
for exporting dual-use items. The Secretary issued those policies and procedures
in EAR for use in controlling and overseeing the export of dual-use items. Those
export policies and procedures are applicable to agencies involved in overseeing,
evaluating, recommending, and approving the requests for exports of sensitive
technologies to countries of concern. Although the EAR does not require the


                                     20 

federal agencies involved in the export license process to review all export license
applications submitted for consideration, those agencies responsible for making
recommendations on exports of dual-use items, including DoD, are subject to
addressing the requirements of the EAA and applicable regulations for those
applications reviewed. Accordingly, it would be prudent for DTSA to follow
those requirements when assessing export license applications because DTSA is
the DoD activity responsible for reviewing, evaluating, and making
recommendations to the Department of Commerce on such requests for dual-use
items. The requirements of the EAR may help reduce the risk of allowing
unjustified exports to China and to strengthen U.S. actions to maintain regional
stability; hinder proliferation of nuclear, chemical, and biological weapons; and
offset adverse effects on our national security. Although, our review was limited
to evaluating export license applications to China, it would be prudent for DTSA
to consider those factors in the EAR for all export license applications.

Also, the Director disagreed with our finding that her office was required to
document reasons for all recommendations made on export applications. She
commented that a statement of reasons was required only for recommendations to
deny export licenses. We addressed the need to document reasons for all
recommendations in our report, "Controls Over Exports to China," March 30,
2006. That report cited the Principal Statutory Authority (Export Administration
Act) for the EAR, which states that DoD will make and keep records of its advice,
recommendations, or decisions, including the factual and analytical basis,
connected with export licenses.

In addition, that report cited the Government Accountability Office's "Standards
for Internal Control in the Federal Government," November 1999, which stated,
"Control activities occur at all levels and functions of the entity." Those control
activities include "approvals, authorizations, verifications, reconciliations,
performance reviews, maintenance of security, and the creation and maintenance
of related records which provide evidence of execution of these activities as well
as appropriate documentation." Furthermore, as demonstrated by our audit,
DTSA did not maintain appropriate documentation to show the factual and
analytical basis for recommending to the Department of Commerce their position
on export license applications.

We agree with the Director's comment that her office had no statutory or
regulatory authority to approve or deny export applications. We modified our
report to show that her office was responsible only for recommending approval or
denial of export applications to the Department of Commerce. Further, we agreed
with the Director's comment that DoD Instruction 2040.2 Calmot be finalized until
the coordination process is completed. We acknowledged this fact in our draft
report; therefore, no change was made in this final report.

DDR&E Comments on the Finding. Although not required to comment, the
Director of Defense Laboratory Programs, responding for the Director, Defense
Research and Engineering, pointed out that our recommendation to complete DoD
Instruction 2040.2 should be redirected to the Under Secretary of Defense for
Policy. For the full text of the comments, see the Management Comments section
of the report.

                                    21
    Audit Response. We agree with the comment by the Director of Defense
    Laboratory Programs about redirecting the responsibility for completing the draft
    DoD Instruction 2040.2 to the Under Secretary of Defense for Policy and adjusted
    the draft of this report accordingly. Also, we made the other changes that the
    Director requested to clarify statements he made during the audit. For instance,
    we adjusted this final report to show that training requirements for personnel at
    Defense research facilities depend on the content of yet-to-be-published revisions
    of the DFARS and DoD Instruction 2040.2. We also adjusted this final report to
    reflect the comments made regarding procedures included in the DFARS and
    DoD Instruction 2040.2.

Recommendations, Management Comments, and Audit
  Response
    For clarity of presentation, we split a single recommendation (Recommendation 1.
    in our draft report) addressed to four organizations with open recommendations
    into four distinct recommendations below (Recommendations 1. through 4.). This
    format highlights each organization’s management comments. Also, we
    renumbered draft Recommendation 2. as Recommendation 2.b.

    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics establish followup procedures to ensure that
    timely and responsive actions are taken to implement all audit
    recommendations.

    Management Comments. The Director of Defense Procurement and Acquisition
    responded for the Under Secretary of Defense for Acquisition, Technology, and
    Logistics and neither concurred nor nonconcurred with our finding and
    recommendation, but provided comments. Specifically, the Director commented
    that his office’s followup procedures are adequate to ensure timely and responsive
    actions to implement our recommendations. The Director also stated
    implementation will be complete upon publication of the final DFARS rule.

    Audit Response. The Director’s comments were not fully responsive. Timely
    implementation of this recommendation is still needed. We issued our audit
    report on March 25, 2004, and the recommendation remained outstanding on
    March 29, 2007. Therefore, the potential risks we mentioned in our report on
    March 25, 2004, remain. That is, until DoD program managers are held
    accountable for identifying export-controlled technology and have controls in
    place to protect the export-controlled technology, DoD will be at increased risk of
    other nations’ countering or reproducing our technology. In accordance with
    DoD Directive 7650.3, we request that USD(AT&L) reconsider his response and
    send comments by October 29, 2007.

    2. We recommend that the Under Secretary of Defense for Policy:

           a. Establish followup procedures to ensure that timely and responsive
    actions are taken to implement all audit recommendations.


                                        22 

      b. Complete and publish DoD Instruction 2040.2, “International
Transfers of Technology, Goods, and Services.”

Management Comments Required. The Under Secretary of Defense for Policy
did not comment on a draft of this report. We request that the Under Secretary of
Defense for Policy provide comments on the final report.

3. We recommend that the Deputy Under Secretary of Defense for
Technology Security Policy and National Disclosure Policy establish followup
procedures to ensure that timely and responsive actions are taken to
implement all audit recommendations.

Management Comments Required. The Deputy Under Secretary of Defense
for Technology Security Policy and National Disclosure Policy did not comment
on a draft of this report. We request that the Deputy Under Secretary of Defense
for Technology Security Policy and National Disclosure Policy provide comments
on the final report by October 29, 2007.

4. We recommend that the Director, Defense Technology Security
Administration establish followup procedures to ensure that timely and
responsive actions are taken to implement all audit recommendations.

Management Comments Required. The Director, Defense Technology Security
Administration did not comment on the recommendation. We request that the
Director, Defense Technology Security Administration provide comments on the
recommendation for the final report by October 29, 2007.




                                   23

Appendix A. Scope and Methodology 

   We conducted this performance audit from June 28, 2006, through March 12,
   2007, in accordance with generally accepted government auditing standards.
   Those standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We reviewed documents such as Executive Orders, Federal laws, and regulations,
   including the Export Administration Act and the associated Export
   Administration Regulations. In addition, we evaluated the adequacy of DoD
   directives, policies, and regulations related to the transfer of militarily sensitive
   technology to countries of concern.

   We interviewed personnel in the following organizations:

          •	 Department of Commerce;
          •	 Under Secretary of Defense for Acquisition, Technology, and
             Logistics;
          •	 Office of the Deputy Under Secretary of Defense for Technology
             Security Policy and National Disclosure Policy;
          •	 Director, Defense Research and Engineering; and
          •	 Defense Technology Security Administration.

   Our contacts with personnel in these organizations included discussions on the
   implementation of recommendations in the previously issued audit reports.

   We limited our review to open recommendations in audit reports we issued to
   comply with Public Law 106-65. Only DoD IG Reports No. D-2006-067,
   D-2004-061, and D-2000-0110 contained open recommendations.

   To complete this review, we judgmentally selected a sample of 40 export license
   applications from 3,489 export license applications processed in calendar years
   2005 and 2006. We obtained the complete USXPORTS file on each of the
   40 selected applications to determine whether DTSA analysis, documentation,
   and elevation procedures achieved the recommended actions made in DoD IG
   Report No. D-2006-067.

   Use of Computer-Processed Data. USXPORTS is the automated system that
   DTSA uses for processing export applications. We used computer-processed data
   from USXPORTS to identify export license applications for China. Testing the
   reliability of the computer-processed data was not the purpose of this audit; the
   data were used strictly as source documentation. We thoroughly compared the
   contents of each selected export license application with supporting


                                        24 

           documentation. Nothing came to our attention as a result of the testing that
           caused us to doubt the reliability of the computer-processed data.

           Use of Technical Assistance. We received technical assistance from the DoD
           Office of Inspector General’s Quantitative Methods Division, which advised us
           on the selection of the sample size.

           Government Accountability Office High-Risk Area. The Government
           Accountability Office has identified several high-risk areas in the Department of
           Defense. This report does not cover any DoD high-risk areas, but this report does
           address the Government Accountability Office’s newly designated Federal
           Government-wide high-risk area of “Ensuring the Effective Protection of
           Technologies Critical to U.S. National Security Interests.” 13




13
     The Government Accountability Office designated this area as being high-risk in January 2007.

                                                     25

Appendix B. Prior Coverage 

    During the last 5 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have conducted multiple
    reviews regarding the adequacy of export controls. Unrestricted GAO reports can
    be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports. The following previous
    reports are of particular relevance to the subject matter in this report.

GAO
    GAO Report No. GAO-01-528, “Export Controls: State and Commerce
    Department License Review Times are Similar,” June 1, 2001

DoD IG
    DoD IG Report No. D-2006-067, “Controls Over Exports to China,” March 30,
    2006

    DoD IG Report No. D-2005-042, “Controls Over the Export Licensing Process
    for Chemical and Biological Items,” March 30, 2005

    DoD IG Report No. D-2004-061, “Export Controls: Export-Controlled
    Technology at Contractor, University, and Federally Funded Research and
    Development Center Facilities,” March 25, 2004

    DoD IG Report No. D-2003-070, “Export Controls: DoD Involvement in Export
    Enforcement Activities,” March 28, 2003
    DoD IG Report No. D-2002-039, “Automation of the DoD Export License
    Application Review Process,” January 15, 2002

    DoD IG Report No. D-2001-088, “DoD Involvement in the Review and Revision
    of the Commerce Control List and the U.S. Munitions List,” March 23, 2001

    DoD IG Report No. D-2000-0110, “Export Licensing at DoD Research
    Facilities,” March 24, 2000

Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, Energy, State,
    Homeland Security, Agriculture, and the Central Intelligence Agency Report
    No. D-2005-043, “Interagency Review of the Export Licensing Process for
    Chemical and Biological Commodities,” June 10, 2005



                                       26 

Inspectors General of the Department of Commerce, Defense, Energy, Homeland
Security, and State and the Central Intelligence Agency Report No. D-2004-061,
“Interagency Review of Foreign National Access to Export Controlled
Technology in the United States,” April 16, 2004

Offices of Inspector General Department of Commerce, Defense, State, and the
Treasury; the Central Intelligence Agency; and the U.S. Postal Service Report
No. D-2003-060, “Interagency Review of Federal Export Enforcement Efforts,”
April 18, 2003

Inspectors General of the Departments of Commerce, Defense, Energy, State, and
the Treasury Report No. D-2002-074, “Interagency Review of Federal Automated
Export Licensing Systems,” March 29, 2002

Inspectors General of the Departments of Commerce, Defense, Energy, and State
Report No. D-2001-092, “Interagency Review of the Commerce Control List and
the U.S. Munitions List,” March 23, 2001

Office of the Inspector General Department of Defense, Office of Intelligence
Review, Report No. 00-OIR-05, “Measures to Protect Against the Illicit Transfer
of Sensitive Technology,” March 27, 2000

Offices of the Inspectors General Departments of Commerce, Defense, Energy,
and State Report No. D-2000-109, “Interagency Review of the Export Licensing
Process for Foreign National Visitors,” March 24, 2000




                                   27

     Appendix C. Status of Prior Recommendations

                             Implementation of Recommendations
                                                             Status of Recommendations
                                                As of June 28, 2006            As of December 21, 2006
                          Recommendation                         Not                              Not
         Report               Number       Implemented      Implemented     Implemented     Implemented
D-2006-0067-D000LS-0001        1.a             0                1               0               1
D-2006-0067-D000LS-0001        1.b             0                1               0               1
D-2006-0067-D000LS-0001        2.a             0                1               0               1
D-2006-0067-D000LS-0001        2.b             0                1               1               0
D-2006-0067-D000LS-0001        2.c             0                1               0               1
D-2006-0067-D000LS-0001        2.d             0                1               0               1
D-2006-0067-D000LS-0001        2.e             0                1               0               1
D-2005-0042-D000LG-0002         1              1                0               1               0
D-2004-0061-D000LG-0001        1.a             0                1               0               1
D-2004-0061-D000LG-0001        1.b             0                1               0               1
D-2004-0061-D000LG-0001        2.a             0                1               0               1
D-2004-0061-D000LG-0001        2.b             1                0               1               0
D-2003-0070-D000LG-0001        A.1             1                0               1               0
D-2003-0070-D000LG-0001        A.2             1                0               1               0
D-2003-0070-D000LG-0001        A.3             1                0               1               0
D-2002-0039-D000LG-0001         1              1                0               1               0
D-2002-0039-D000LG-0001         2              1                0               1               0
D-2002-0039-D000LG-0001         3              1                0               1               0
D-2002-0039-D000LG-0001         4              1                0               1               0
D-2001-0088-D000LG-0001        A.1             1                0               1               0
D-2001-0088-D000LG-0001        A.2             1                0               1               0
D-2001-0088-D000LG-0001        A.3             1                0               1               0
D-2001-0088-D000LG-0002       B.2.a            1                0               1               0
D-2001-0088-D000LG-0002       B.2.b            1                0               1               0
D-2001-0088-D000LG-0002        C.2             1                0               1               0
D-2001-0088-D000LG-0003        B.1             1                0               1               0
D-2001-0088-D000LG-0003        C.1             1                0               1               0
D-2000-0110-D000LA-0001       A.1.a            0                1               1               0
D-2000-0110-D000LA-0001       A.1.b            0                1               0               1
D-2000-0110-D000LA-0001       A.1.c            1                0               1               0
D-2000-0110-D000LA-0001       A.2.a            1                0               1               0
D-2000-0110-D000LA-0001       A.2.b            1                0               1               0
D-2000-0110-D000LA-0001       A.2.c            0                1               1               0
D-2000-0110-D000LA-0001       A.2.d            0                1               1               0
D-2000-0110-D000LA-0002       B.1.a            1                0               1               0
D-2000-0110-D000LA-0002       B.1.b            1                0               1               0
D-2000-0110-D000LA-0002        B.2             1                0               1               0
D-2000-0110-D000LA-0002        B.3             1                0               1               0
D-2000-0110-D000LA-0002        B.4             1                0               1               0
          Total                               25               14              29              10




                                              28
        Appendix D. Assessment of Export Applications

            CY 2005 and CY 2006 Assessment of DTSA Applications for Making Exports to China

                                      Export Control
  Sample         USXPORTS              Classification      Adequate           Adequate
  Number         File Number             Number            Analysis        Documentation        DTSA Recommendation
      1             D347546               2A983               No                  No                      AWC
      2             D337344               1C350               No                  No                      AWC
      3             D344327               3A231               No                  No                      AWC
      4             D340340               6A003               No                  No                      AWC
      5             D333544               1C350               No                  No                      AWC
      6             D333545               1C350               No                  No                      AWC
      7             D329056               6A003               No                  No                      AWC
      8             D337063               1C350               No                  No                      AWC
      9             D342226               6A003               No                  No                      AWC
     10             D331360               6A003               No                  No                      AWC
     11             D322475               6A003               No                  No                      AWC
     12             D340947               1C350               No                  No                      AWC
     13             D348973               2A983               No                  No                      AWC
     14             D332675               6A003               Yes                 No                      AWC
     15             D344183               6A003               No                  No                      AWC
     16             D343704               1C350               No                  No                      AWC
     17             D347548               2A983               No                  No                      AWC
     18             D336673               1C350               No                  No                      AWC
     19             D336321               1C350               No                  No                      AWC
     20             D332824               2A983               No                  No                      AWC
     21             D326299               1C350               No                  No                  Disapproved
     22             D332399               6A003               No                  No                  Disapproved
     23             D332835               6A003               No                  No                  Disapproved
     24             D335081               6A003               Yes                 No                  Disapproved
     25             D335082               6A003               Yes                 No                  Disapproved
     26             D340344               6A003               Yes                 No                  Disapproved
     27             D342044               6A003               Yes                 No                  Disapproved
     28             D345271               6A003               Yes                 No                  Disapproved
     29             D349729               6A003               Yes                 No                  Disapproved
     30             D346795               6A003               Yes                 No                  Disapproved
     31             D363862               1C350               No                  No                      AWC
     32             D359155               1C350               No                  No                      AWC
     33             D357867               1C350               No                  No                      AWC
     34             D367495               2A983               No                  No                      AWC
     35             D361730               2A983               No                  No                      AWC
     36             D368316               2A983               No                  No                      AWC
     37             D364144               3A231               No                  No                      AWC
     38             D360724               3A231               Yes                 No                      AWC
     39             D355231               6A003               N/A                N/A                      RWA
     40             D364201               6A003               Yes                 No                  Disapproved
(The first 30 applications represent Calendar Year (CY) 2005 and the remaining 10 represent CY 2006 applications.) 6A003–
Sensors and Lasers; 1C350–Chemicals and Toxins; 2A983–Explosives; 3A231–Electronics; AWC-Approved With Conditions;
RWA-Returned Without Action; and N/A-Not Applicable.

                                                          29
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Research and Engineering
   Deputy Under Secretary of Defense (Science and Technology)
Under Secretary of Defense for Policy
   Deputy Under Secretary of Defense (Technology Security Policy and National
      Disclosure Policy)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
   Programs)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
   Director, Plans and Policy Directorate (J-5), Joint Staff
   Director, Force Structure, Resources, and Assessment Directorate (J-8), Joint Staff

Department of the Army
Inspector General, Department of the Army 

Director, Joint Program Executive Office (Chemical and Biological Defense) 


Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                           30 

Other Defense Organizations
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Security Service
Director, Defense Technology Security Administration
Director, National Security Agency

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of Agriculture
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of Health and Human Services
Inspector General, Department of Homeland Security
Inspector General, Department of State
Inspector General, Department of Treasury
Inspector General, Central Intelligence Agency
Inspector General, U.S. Postal Service
U.S.-China Economic and Security Review Commission

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Select Committee on Intelligence
Senate Committee on Foreign Relations
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security, and Foreign Affairs, Committee on Oversight
  and Government Reform
House Subcommittee on Information Policy, Intergovernmental Relations, and the
  Census, Committee on Government Reform
House Subcommittee on Terrorism, Nonproliferation, and Trade, Committee on Foreign
  Affairs
House Permanent Select Committee on Intelligence
House Subcommittee on Oversight and Investigations
House Committee on Homeland Security


                                         31

Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments
                                                                                                          Final Report
                                                                                                           Reference



                            OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                               3000   DEFENSE PENTAGON
                                             WASHINGTON. DC 20301 3000


                                                                                   MAR 2 6 2007
    ACQUISITION.
   TECHNOLOGY 

   AND LOGISTICS 





            MEMORANDUM FOR PROGRAM DIRECTOR, READINESS AND OPERATIONS 

                            SUPPORT, OFFICE OF THE INSPECTOR GENERAL 


            THROUGH: DIRECTOR, ACQUISITION RESOURCES AND ANALYSIS

            SUBJECT: Followup Audit on Recommendations for Controls Over Exporting Sensitive 

                     Technologies to Countries of Concern (Project No. D2006-D000LG­
                     0199.000) (Your Memo dated March 12, 2007) 


                 As requested, we have reviewed the draft report and offer the following 

            comments. 


            1.	 The Office of Defense Procurement and Acquisition Policy (DPAP) has responsibility
                for Recommendations 2.a. and 2.b. in Report D-2006-061 dated 25 March 2004.
                    a.	 The finding (on page 6 of the draft report) regarding the status of
                        OUSD(AT&L) DPAP action on these recommendations should be edited and
                        augmented to reflect that (1) completing the action to implement
                        Recommendations 2.a. and 2.b. requires compliance with the formal
                        rulemaking process that applies to the DoD Federal Acquisition Regulation
                        Supplement (DFARS), (2) the implementing action is not limited to
                        publication of a single clause but involves publication of a DFARS rule that
                        includes contract clauses for use in particular circumstances, (3) DoD
                        published a proposed rule on 12 July 2005, and based on public comments
                        received by the October 2005 deadline, made substantial revisions to it; (4)
                        DoD published the second proposed rule on 14 August 2006, and received
                        public comments from 167 persons or organizations by the deadline of 2
                        November 2006; (5) the DAR Council has agreed upon a draft final rule based
                        on consideration of public comments received on the second proposed rule,
                        and the draft final rule is now in the last stages of the formal rulemaking
                        process. Publication of the final rule is expected within about 90 days.
                     b.	 A clarification is needed on page 11 under "Issuance of Guidance". The           Revised
                         DFARS rule docs not contain procedures for determining whether goods,
                         services, and technology at Defense research facilities are exportable with or
                         without a license. What the DFARS rule docs is to assign responsibility to
                         requiring activities for determining if, during performance of a contemplated
                         contract, the contractor will generate or require access to export-controlled
                         information or technology,
                     c.	 A correction is needed on pages 11-12 under 'Training Requirements for
                         Defense Research Personnel". There are no training requirements in the
                                                                                                          Revised
                         DFARS rule. Although the DFARS rule docs not mandate training, the




                                                          33 

Final Report
 Reference




                          DFARS R&D Committee, the DAR Council, DPAP, DDRE, and DTSA
                          recognize the importance of training for contracting officers and requiring
                          activity officials who will implement the new DFARS rule. DDRE will lead
                          the effort to ensure appropriate training is available to requiring activities and
                          DPAP will lead the effort to ensure appropriate training is available for
                          contracting officers. The two training efforts will be coordinated since the
                          requiring activities and the contracting officers work interactively. The
                          content of contracting officer training is dependent upon the specifics of the
                          DFARS rule. The content of the requiring activity training is dependent upon
                          the specifics of both the DFARS rule and the revised DoDD 2040.2.
                          Therefore a comprehensive training syllabus cannot be designed until the rule
                          and directive are complete.

Revised        2. DPAP does not have responsibility for DoD Directive 2040.2. There is a suggestion
                  in the draft report that there is a linkage between publication of the DFARS rule, for
                  which DPAP has responsibility, and publication of anew 2040.2. There is no such
                  linkage. (Incidentally, references in the report to DoDI 2040.2 should be changed to
                  DoDD 2040.2. There is not DoD Instruction numbered 2040.2.)

               3.	 The draft report's references to USD(AT&L) being responsible for DoDD 2040.2 arc
                   confusing, especially since the summary regarding previous recommendations
                   directed to USD(P) (at the top of page 7) and Recommendation 2 (on page 18) of this
Page 22            draft report recognize that responsibility for publishing 2040.2 rests with the USD(P).
                   For example, the statements on pages 11 and 12 of the draft report that a
Deleted            USD(AT&L) official "could not provide a planned completion dale for DoDI 2040.2,
                   which remains in draft" are irrelevant since USD(AT&L) is responsible for neither
                   the draft nor the final document. We suggest that the report he clarified in this regard.

Page 22        4. DPAP defers to OUSD(AT&L) ARA with regard to Recommendation 1 on page 18
                  of the draft report. From DPAP's perspective, OUSD(AT&L) follow-up procedures
                  are adequate to ensure timely and responsive actions are taken to implement the IG
                  recommendation assigned to DPAP. DPAP has provided periodic follow-up status
                  reports on actions taken to implement Recommendations 2.a. and 2.b. of OIG Report
                  D-2004-061. Implementation will be complete upon publication of the final DFARS
                  rule.

                      If you require further information, please contact Barbara Glotfelty at 703-697¬
               9351 or harbara.glotfelty@osd.mil,



                                                                     Shay D. Assad
                                                                     Director, Defense Procurement
                                                                      and Acquisition Policy




                                                            34 

Defense Research and Engineering Comments 

                                                                                             Final Report
                                                                                              Reference


                              OFFICE O F THE DIRECTOR O F
                          DEFENSE RESEARCH AND ENGINEERING
                                     3040 DEFENSE PENTAGON
                                    WASHINGTON. DC 20301-3040



                                                        MAR 2 6 2007
      MEMORANDUM FOR PROGRAM DIRECTOR, READINESS AND
                    OPERATIONS SUPPORT, OFFICE OF THE
                    INSPECTOR GENERAL

      SUBJECT: Follow-up Audit on Recommendations for Controls Over Exporting
               Sensitive Technologies to Countries of Concern, Project No. D2006­
               DOOOLG-0199.000 (Draft of a Proposed Report dated March 12,
               2007)

             As requested, I have reviewed the draft report. The draft report is generally
      well written. The findings germane to DDR&E are commendable. A few
      statements within the report contain errors, and while the errors do not lead to
      incorrect findings, the errors should be corrected to increase the overall accuracy
      and credibility of the report, its findings, and recommendations.

         1. The Director, Defense Research and Engineering (DDR&E) has
            responsibility for two recommendations in Report D-2000-110 dated March
            24, 2000. I do not repeat those recommendation. They appear on page 11
            of the draft report,

                a. The statement in the Issuance of Guidance section (page 11) "...the       Revised
                   Defense Federal Acquisition Regulation Supplement (DFARS),
                   together with DoDI 2040.2 will include these procedures." is not
                   precisely correct. The DDR&E official should have said "...the
                   pending DoDI 2040.2 will provide procedures and the pending
                   Defense Federal Acquisition Regulation Supplement (DFARS) rule
                   will provide specific contract clauses to use in particular
                   circumstances."

                b. The first sentence in the next paragraph should be changed. It says       Revised
                   USD(AT&L) is responsible for finalizing DoDI 2040.2. That is
                   incorrect. The last sentence in the same paragraph is correct.
                   USD(P) is responsible for DoDI 2040.2. Change the first sentence
                   to read "a DDR&E official told us that the USD(AT&L) is
                   responsible for finalizing the DFARS rule and the USD(P) is
                   responsible for finalizing DoDI 2040.2."

                c. The statement in the Training Requirements for Defense Research           Revised
                   Personnel section (pages 11 & 12) "...a DDR&E official informed




                                               35 

Final Report
 Reference




                         us that the training requirements for personnel at Defense research
                         facilities are in a proposed revision of the DFARS and a draft
                         revision of DoDI 2040.2 " is not precisely correct. The DDR&E
                         official should have enabled you to write "...a DDR&E official
                         informed us that the training requirements for personnel at Defense
                         research facilities are dependent upon the content yet to be published
                         in a revision of the DFARS rule and a revision of DoDI 2040,2. "

Deleted               d. The last sentence in the next paragraph (page 12) should say
Page 11                  "Further, DDR&E officials told us that the USD(AT&L) is
                         responsible for finalizing the DFARS and USD(P) is responsible for
                         finalizing DoDI 2040.2. "

               If you require further information, please contact Jon Porter at 703-588-1415
               or ionathan.porterf@osd.mil.




                                                    James M. Short
                                                    Director, Defense Laboratory Programs




                                                     36
Defense Technology Security Administration
Comments
                                                                                                      Final Report
                                                                                                       Reference

                    DEFENSE TECHNOLOGY SECURITY ADMINISTRATION
                                        2900 D E F E N S E P E N T A G O N
                                      W A S H I N G T O N , DC 20301-2900



                                                                                APR 2 7 2007
      Mr. Dennis L. Conway 

      Program Director 

      Readiness and Operations Support 

      Office of the Inspector General 

      Department of Defense 

      400 Army Navy Drive 

      Arlington, Virginia 22202 


      Dear Mr. Conway:

             My staff has reviewed your draft report entitled: "Followup Audit on
     Recommendations for Controls Over Exporting Sensitive Technologies to Countries of
     Concern" (Project No. D2006-D000LG-0199.000). While I appreciate the effort your
     staff expended on this project, I am concerned that it does not accurately portray the
     actions DTSA has undertaken based upon your earlier findings. In fact, I am compelled
     to non-concur in several areas that we feel are inaccurate or misleading. The two
     recommendations I am referring to follow:

     1.     IG Recommendation: Documentation of Decisions on Export Applications

           DTSA does not concur with the IG finding and recommendation. This non­
     concurrence is based upon the fact that the IG audit was based upon several erroneous
     assumptions:

             First, the IG selected the Export Administration Regulation (EAR) as the standard
      for analysis. Though DTSA does not disagree that these are important policies to be
      confirmed prior to approval of a license, they ate the responsibility of the Department of
     Commerce (DoC), not the DoD. EO 12981 grants DoD the authority to review any
     license received by the DoC and permits DoD to notify DoC of any application it does
     not wish to review. However, the EO prescribes no standard to be used by DoD to either
     request or defer review. It should therefore be assumed that the standard for analysis
     likewise rests with DoD, not DoC and its policies in the EAR. DTSA has provided
     copies of numerous standard operating procedures and identified policies which form the
     basis of DoD analysis. These, not the EAR standards, should be considered controlling
     in this case, For DoD to concentrate its review solely on the DoC policies would be both
     redundant and could indeed jeopardize review of DoD equities.

             Second, when using the EAR as a standard for review, the auditors' findings state
     that the analysis and documentation were inadequate to justify the decision by DTSA to
                                                                                                   Revised
     "approve" license applications. We believe this is incorrect on several levels. DTSA




                                                         37 

Final Report
 Reference




                  has no statutory or regulatory authority to approve or deny license applications, merely to
                  recommend a course of action to the licensing department, More importantly, the EO
                 requires that only recommendations to deny a license "include a statement of the reasons
                 for such recommendation that are consistent with" the EAR. No such requirement exists
                 for other recommendations. Finally, the EO further states that if no recommendation is
                 received within 30 days of referral, the referral department will "be deemed to have no
                 objection to the decision" by the Secretary of Commerce. Devoting resources to
                 document analysis and recommendations that DoD has determined to have no national
                 security implications would not be a prudent use DoD assets and could potentially
                jeopardize DoD's ability to provide the documentation and analysis required to stop
                exports of national security concern.

                        Third, despite many discussions, reviews, and instruction by the DTSA staff, we
                 believe that the auditors did not fully take into account the extensive information that was
                 available in the USXports database, the relationship between the requirements of the
                 procedures in place and the entries made therein, nor the significance of the decision to
                 the overall process. The procedures in place require that the analyst review the end user,
                the end use and the technology to determine if there arc concerns raised by the
                 application in these areas. At each level of review, whether by the "tiger team" on receipt
                or after staffing, the analyst is required to analyze these areas and determine if there is a
                national security concern generated by any of these elements of the prospective export
                using these guidelines. The releasing official is certifying, in the case of a
                recommendation of approval, that no national security concern exists or, in the case of an
                approval with conditions, that these concerns have been adequately addressed in the
                conditions. Ergo, the entire case, the procedural requirements and final determination
                constitute the documentation that these issues have been addressed. The auditors seem to
               require that a "checklist" or other summary, redundantly documenting these requirements
               were met, be appended to each case record. The IG comments included a
               recommendation that reference to a precedent case in the USXports database, by case
               number, was insufficient documentation to support its use as a precedent, but rather the
               entire case would have to be copied into the case at the tool bar. The cost in analysts'
               tune and resources would be extraordinary and would probably not be considered a wise
               use of resources, unsupported by risk involved.

                      Given the facts above, DTSA will take no further action on this recommendation.

               2.     Recommendation: Implementation of prior recommendations in 2040.2

Revised               DTSA does not concur with the IG finding and recommendation. This non­
               concurrence is based upon the fact that the IG audit did not take into account the steps
               taken by DTSA in incorporating their prior suggestions.




                                                              38 

         DTSA personnel have on many occasions explained and demonstrated to the
audit team that their recommendations    are incorporated into the revised version of
2040.2 that has been in the staffing process for many months and is now approaching
approval. Unfortunately, as my staff explained to the IG team, 2040.2 cannot be finalized
until the coordination process is complete,

                MypointofcontactforIGmattersDr.PeterLeitner,peter.leitner@osd.mil,or 703-325-4080.



                                                 Beth M. McCormick
                                                 Director (Acting),
                                                  Defense Technology
                                                  Security Administration




                                        3




                                            39
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Robert F. Prinzbach II
Dennis L. Conway
Jerry H. Adams
Lamar Anderson
Woodrow W. Mack
Gustavo Rivera-Morales
Jerel L. Morton
Norka Murat
Keyla Centeno-Aviles
Gregory S. Fulford
Jacqueline N. Pugh
Allison E. Tarmann
